 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Health Care Anti-Fraud, Waste, and Abuse
     Community Volunteer Program
           First Year Outcomes




                    JUNE GIBBS BROWN
                     Inspector General

                       FEBRUARY 1999
                       OEI-02-97-00522
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee Dunn, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                                  HEADQUARTERS

Jodi Nudelman, Project Leader                           Susan Burbach, Program Specialist

Judy Lin

Miriam Gareau





      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                  EXECUTIVE SUMMARY

PURPOSE

     To report on the first year performance of the Health Care Anti-Fraud, Waste, and Abuse
     Community Volunteer Demonstration Program.


BACKGROUND

     Congress authorized the Health Care Anti-Fraud, Waste, and Abuse Community
     Volunteer Demonstration Program in the Omnibus Consolidated Appropriation Act of
     1997 (P.L. 104-208) in order to further curb losses to the Medicare program. The Senate
     Committee believed that retired professionals, with appropriate training, could serve as
     educators and as resources to assist Medicare beneficiaries and others to detect and report
     fraud, waste, and abuse. To fund this program, the Senate Report (104-368) directed that
     $2 million be transferred to the Administration on Aging (AoA) from the Health Care
     Financing Administration’s research and demonstration budget. In May of 1997, AoA
     awarded grants to 12 organizations.

     The Senate Report also directed AoA to consult with the Office of Inspector General
     (OIG) and the General Accounting Office to assess the performance of the program. In
     response, the OIG developed performance measures with the assistance of the 12 projects.
     This report is based on performance data reported by the projects for the first year of the
     program. These data are self-reported and were not independently verified.


FINDINGS

Recruiting and Training

     The 12 projects recruited and trained a substantial number of individuals as
     Medicare educators and resources, although not all were retired professionals. In
     the first year, the projects collectively recruited and trained 3,682 trainers, at least 1,738
     (47 percent) of whom were retired professionals.

Educating Seniors

     The projects educated a large number of seniors about Medicare fraud. In total, the
     projects reported training nearly 41,800 Medicare beneficiaries and family members to
     detect and report suspected cases of health care fraud, waste, and abuse.




                                                1

Community Awareness

      The projects conducted other types of anti-fraud activities, making many in the
      community aware of Medicare fraud. The 12 projects generated a total of 386 public
      service announcements that reached an estimated 44 million individuals in the first year of
      the program. The projects also reported conducting 877 community education events that
      informed an estimated 263,000 seniors and members of the community.

Identified Referrals

      The projects identified instances of potential fraud, waste, and abuse. As a result of
      their outreach activities, the projects received a total of 657 allegations of fraud, waste, or
      abuse that were referred to Medicare contractors or investigative agencies. Eighty-eight
      have been identified as potential overpayments. Four projects estimated that as much as
      $1.16 million in Medicare funds may be recouped. The remaining eight projects were not
      able to identify any potential Medicare savings, perhaps because of the recency of some of
      the referrals or the difficulty of tracking these outcomes.

Range of Outcomes

      The projects produced a wide range of outcomes in the first year. Several projects
      trained fewer than 40 seniors, whereas one project trained greater than 1,700 individuals.
      The number of allegations also varied, ranging from 1 to 200. These outcomes did not
      appear to be associated with the type of organization. Rather, grantees representing all
      three types of organizations including area agencies on aging, State units on aging, and
      private aging organizations, achieved results.

CONCLUSION

      First year performance data reported by the 12 projects show that the projects recruited
      and trained volunteers, educated Medicare beneficiaries, and identified instances of
      potential fraud, waste, and abuse. The data also indicate that the individual projects had
      very different experiences which suggests that they adopted different approaches to
      recruiting and training volunteers or that some had slower starts than others.

      Before a new round of grants is awarded, it is important to learn from projects’
      experiences. Such information will assist AoA in providing guidance to current and future
      projects and will improve performance and ensure quality outcomes. To do this, we will
      conduct an inspection that will identify and describe key implementation issues including
      what problems projects face and what practices work best. The report will also focus on
      curricula for training trainers, best practices for tracking trainers’ activities and fraud
      allegations, and efforts to document outcomes.

      Additionally, AoA needs to clarify guidance to projects about the extent to which they
      should focus their efforts on recruiting and training retired professionals and on investing
      time and resources in broader community education activities.
                                                 2

                            TABLE OF CONTENTS




                                                                                                      PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS

          Recruiting and Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Educating Seniors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Community Awareness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Identified Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Range of Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Type of Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Project Spending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES


          A. Selected Project Characteristics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          B. Performance Measures and Definitions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          C. First Year Outcomes for the Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18





                                                                   3

                       INTRODUCTION

PURPOSE

   To report on the first year performance of the Health Care Anti-Fraud, Waste, and Abuse
   Community Volunteer Demonstration Program.


BACKGROUND

   Congress authorized the Health Care Anti-Fraud, Waste, and Abuse Community
   Volunteer Demonstration Program in the Omnibus Consolidated Appropriation Act of
   1997 (P.L. 104-208) in order to bring more resources to bear on the effort to curb losses
   to the Medicare program. The Senate Committee believed that thousands of retired
   accountants, health professionals, investigators, teachers, and others could serve as
   community volunteers in this effort. More specifically, these retired professionals, with
   appropriate training, could serve as Medicare educators and as resources to assist
   Medicare beneficiaries and others to detect and report fraud, waste, and abuse.1 Because
   the language for this program was introduced by Senator Tom Harkin of Iowa, these
   grants are commonly referred to as “Harkin Projects.”

   To fund this program, the Senate Report (104-368) directed that $2 million be transferred
   to the Administration on Aging (AoA) from the Health Care Financing Administration’s
   research and demonstration budget. In May of 1997, AoA awarded funds to 12
   organizations including two area agencies on aging, six State units on aging, and four
   private aging organizations. (See Appendix A for selected characteristics of the projects.)
   These grants were awarded to different types of organizations to examine whether various
   approaches were successful in recruiting and training volunteers to educate seniors about
   Medicare fraud. This report assesses the performance of these 12 projects for the first
   year of the program.

   As of October 1998, the program was expanded. Under Title IV of the Older Americans
   Act in the FY99 Omnibus Appropriations bill, funding for the program was increased to
   $7 million, making the demonstration program a national effort and significantly extending
   the scope of the program.




   1
    The Health Care Financing Administration (HCFA) defines fraud as an intentional
   deception or misrepresentation that could result in payment of an unauthorized Medicare
   benefit. HCFA defines abuse as a provider practice that directly or indirectly results in
   unnecessary costs to Medicare or improper reimbursement.
                                            4
Performance Measures

      The Senate Report also directed AoA to consult with the Office of Inspector General
      (OIG) and the General Accounting Office to assist them in implementing the program and
      in developing outcome measures to assess the performance of the projects. In response,
      the OIG developed performance measures with the assistance of the 12 projects. As
      presented in the report Health Care Anti-Fraud Volunteer Project Performance Measures
      OEI-02-97-00520, OIG staff reviewed the approved grantee applications and created a
      logic model. This model and proposed performance measures were shared with each of
      the projects and the measures were revised with their assistance. These measures are
      listed in Appendix B and include:

             <       the number of volunteers trained,

             <       the number of educational sessions led by the trainers,

             <       the number of Medicare beneficiaries educated, 

             <       the number of referrals, cases, and recoveries attributable to the project


      In this earlier report, project directors also highlighted several problems they faced in
      implementing their program plans. Specifically, they reported difficulty in limiting their
      recruitment to retired professionals, as intended, because non-professionals also presented
      a willingness to volunteer. They also noted that they were recruiting individuals to be
      trainers within the existing network, as well as outside this network. Discussions further
      revealed that projects were at very different stages of implementation.

      To provide ongoing information about the project, the OIG asked each of the projects to
      provide data on the agreed upon performance measures on the 12, 18, 24, and 30 month
      anniversary of the initial grant. At the request of AoA, the OIG will prepare a report
      analyzing the data for each reporting period. This inspection covers the first year of the
      program and is the first in a series of reports.

Other Anti-Fraud Outreach Initiatives

      The AoA has received funding for another community-based initiative with a similar
      purpose, combating fraud, waste, and abuse in the Medicare and Medicaid programs.
      Under the Health Insurance Portability and Accountability Act (HIPAA), AoA awarded
      anti-fraud and abuse grants to 18 State agencies. In addition to funding outreach training
      for aging network staff, these “HIPAA grants” support public awareness campaigns and
      the development of training manuals and Internet websites, among other activities.

      Another initiative sponsored by the Department of Health and Human Services (HHS)
      seeks to educate a broader audience of Medicare beneficiaries about health care fraud.
      The OIG, in partnership with AoA, the Health Care Financing Administration (HCFA),
      the Department of Justice, and the American Association of Retired Persons, is planning a
      nationwide Medicare fraud outreach campaign in February 1999. This campaign will use
      mass media to encourage Medicare beneficiaries to review their “Explanation of Medicare
      Benefits” to identify possible instances of fraud or abuse and to report them to the OIG
      Hotline.
                                               5

      Complementing these efforts, HHS is also implementing the Incentive Program for Fraud
      and Abuse Information. Beginning in January 1999, this program will reward Medicare
      beneficiaries and others who report fraud and abuse in the Medicare program if their
      information leads directly to the recovery of money for fraudulent activity not already
      under investigation. Beneficiaries may gain a reward of up to $1,000, or 10 percent of the
      recovered funds.


METHODOLOGY

      This report was conducted in two phases. In the first phase, OIG staff pre-tested the
      performance measures that were developed with the 12 grantees. To do this, staff asked
      each of the grantees to provide performance data for the time period covering July 1, 1997
      through either April or May of 1998. The grantees were also asked to comment on the
      availability of these data and the workability of the definitions. As a result of the pre-test,
      the performance measures were further revised.

      In the second phase, OIG staff asked the 12 grantees to provide data on the agreed upon
      performance measures for the first year of the program. This time period covered July 1,
      1997 through June 30, 1998. The findings in this report are based on these data.

      This inspection was conducted in accordance with the Quality Standards for
      Inspections issued by the President’s Council on Integrity and Efficiency.

Limitations

      It is important to note that the findings in this report are based on self-reported data that
      were not independently verified. Furthermore, note that outcome findings gauge the
      extent to which the program is achieving its intended goals; they do not provide
      information about the quality of these outcomes nor the implementation of the program.
      Qualitative data and analyses on inputs, processes, outputs, and outcomes are needed to
      better understand these issues.




                                                 6

                                   FINDINGS

      First year performance data reported by the 12 projects show that they recruited and
      trained volunteers, educated Medicare beneficiaries, and identified instances of potential
      fraud, waste, and abuse. The data also indicate that the individual projects had very
      different experiences which suggests that they adopted different approaches to recruiting
      and training volunteers or that some had slower starts than others.


Recruiting and Training

The 12 projects recruited and trained a substantial number of individuals as
Medicare educators and resources, although not all were retired professionals.

      In the first year, the demonstration projects reported collectively recruiting and training a
      total of 3,682 trainers, at least 1,738 (47 percent) of whom were retired professionals.
      (See Figure 1.)




                                         )))))))))))
                                              7
      Seven projects reported training more than 100 trainers each, whereas five programs
      trained between 27 and 85 trainers. The New York State Unit on Aging trained more
      individuals than any other project, over 1,700 or nearly half of the total number trained by
      all projects.2 (See Appendix C for more detailed data by project.)

      Additionally, projects did not train only retired professionals. Project directors explained
      that others also volunteered and that they believed that limiting training to retired
      professionals was inconsistent with the larger goals of the Older Americans Act. Also,
      guidance from AoA on this objective was somewhat unclear.


Educating Seniors

The projects educated a large number of seniors about Medicare fraud.

      In total, the 12 projects reported educating nearly 41,800 Medicare beneficiaries and
      family members to detect and report suspected cases of health care fraud and abuse. (See
      Figure 2.)

      The 12 projects typically conducted two types of training: group and one-on-one.
      Overall, trainers led a total of 1,321 group sessions that reached about 40,365 seniors and
      others. Most of the projects also conducted one-on-one training, perhaps taking
      advantage of the existing network of aging staff, to reach another 1,407 individuals. The
      projects emphasized one-on-one training to different degrees. Five projects informed
      fewer than 15 beneficiaries one-on-one, whereas four projects each met with more than
      150 seniors and family members in this manner.

      On average, however, trainers conducted relatively few sessions in the first year. In
      almost every project, trainers conducted an average of less than one session each. This
      finding suggests that most projects had not fully implemented their program and that
      trainers were just beginning to conduct sessions to educate seniors. Across all projects,
      each training session included an average of about 30 seniors and others. This points to
      the potential of the program to reach many more Medicare beneficiaries in the near future.




      2	
             The New York State Unit on Aging also received a grant under the Health
             Insurance Portability and Accountability Act (HIPAA) that was used to support
             these same anti-fraud activities.
                                        )))))))))))
                                             8
                                     Figure 2

        Number of Medicare Beneficiaries and Others Educated

                         In the First Year




              Total: 41,772




Community Awareness

The projects conducted other types of anti-fraud activities, making many in the
community aware of Medicare fraud.

      Collectively, the 12 projects generated 386 public service announcements that reached an
      estimated 44 million individuals in the first year of the program. The projects also
      conducted 877 community education events that informed an estimated 263,000 seniors
      and members of the community about Medicare fraud. Most projects reported doing
      both types of activities, running a median of 19 public service announcements and 35
      community education events.




                                       )))))))))))
                                            9
Identified Referrals

The projects identified instances of potential fraud, waste, and abuse.

      As a result of their outreach activities, the projects received a total of 657 allegations of
      fraud, waste, or abuse. These allegations were referred to Medicare contractors, Medicaid
      Fraud Control Units, State Attorney Generals, or the Office of Inspector General. The
      number of allegations differed by project, ranging from less than 5 in two projects to
      greater than 140 in two other projects. Of all allegations reported by the projects, 88 have
      been identified as potential overpayments which represent about 13 percent of all
      allegations.

      Based on these allegations, the projects estimated that as much as $1.16 million in
      Medicare funds may be recouped. Four projects also reported referrals, amounting to
      another $39,000 in funds to other State and Federal programs. (Note that the inspection
      team did not verify the reported savings. We will seek to document these numbers in our
      next inspection on implementation issues.) Eight projects were not able to identify any
      potential Medicare savings. This may be partly due to the recency of some of the referrals
      they made to investigative agencies which often take six to eight months to resolve
      complaints. In addition, it is unclear how projects track outcomes of complaints made
      directly to Medicare contractors and to the OIG Hotline. Also, some projects seem to
      have been in earlier stages of developing a tracking system and may have had more
      difficulty reporting these outcomes.


Range of Outcomes

The projects produced a wide range of outcomes in the first year.

      Outcomes varied among the 12 projects. Specifically, several projects trained fewer than
      40 seniors, whereas one project trained more than 1,700 individuals. The projects also
      educated different numbers of Medicare beneficiaries, ranging from less than 600 in
      several projects to greater than 7,000 in four projects. Productivity, measured in terms of
      the number of Medicare beneficiaries and others educated per trainer, also ranged widely.
      In one project, a trainer educated an average of 83 individuals. Trainers in other projects,
      however, informed less than four beneficiaries per person. Further, fraud and abuse
      results differed. The number of allegations, for example, ranged from 1 to 200. More
      specifically, five programs produced fewer than 20 allegations, whereas two projects
      reported greater than 100 allegations.

      Differences in outputs and outcomes may be partly due to projects adopting different
      approaches and being at varying stages of implementation. For example, projects took
      different approaches to training trainers. Projects that conducted several days of
      instruction often trained a relatively small number of individuals. In contrast, projects that
      offered only a few hours of training typically trained a large number of seniors. These

                                         )))))))))))
                                              10
      approaches may have had different effects on the quantity and also the quality of trainers.
      In addition, some projects had start up problems. Administrative issues with host agencies
      or difficulty recruiting staff delayed training and resulted in some projects training fewer
      trainers.

      Variations in how the projects designed their complaint receipt and referral system may
      have also contributed to differences between projects’ outcomes. Specifically, in the first
      year, some projects fielded complaints directly using their own toll-free numbers and staff.
      Other projects asked beneficiaries to call the OIG Hotline, the Medicare contractor, or the
      State Medicaid Fraud Control Unit directly. These differences have implications for how
      well a project was able to track the number of allegations and the amount of money that
      was recouped due to their efforts.


Type of Organization

Outcomes did not appear to be associated with the type of organization,
suggesting that different types of grantees can be successful.

      Different types of organizations were funded to support Congress’ desire to test various
      approaches to training volunteers and educating Medicare beneficiaries to combat health
      care fraud and abuse. Specifically, the grantees that received funding included two area
      agencies on aging, six State units on aging, and four private aging organizations. As
      noted, the grantees produced a wide range of results. No one type of organization
      consistently produced better results on these performance measures than another.
      Moreover, no pattern by type of organization was discernible.

      From another perspective, grantees representing all three types of organizations achieved
      results. Projects of all three types of organizations were successful in recruiting and
      training volunteers, each training over 100 individuals. Similarly, grantees representing all
      three types of organizations educated a large number of Medicare beneficiaries and others,
      over 7,000 each.

      Several differences, however, were evident between organizations that served the entire
      State population and those that served a more limited geographical area. Specifically,
      statewide organizations trained more volunteers but educated fewer beneficiaries,
      compared to regional organizations. The six statewide grantees trained a median of 268
      trainers who educated a median of 842 individuals. In contrast, the six regional grantees
      trained a median of 103 volunteers who educated over 2,320 Medicare beneficiaries and
      others. Thus, regional organizations seemed to have been able to implement their plans
      more efficiently in the first year than programs that covered a larger area; they trained
      volunteers more quickly who were then able to train a larger number of seniors.




                                        )))))))))))
                                             11
Project Spending

The 12 demonstration projects spent a total of about $1 million in Federal grant
money in the first year, about half of the total funds awarded.

      The projects were awarded about $2 million in Federal grant money which they often
      combined with funds from other sources. The Federal funds were divided between the
      individual projects, with each grantee receiving between $100,000 and $188,000. As
      shown in Appendix C, the projects spent very different amounts of these funds in the first
      year. Most projects expended less than $100,000 each, which ranged from 16 percent to
      50 percent of their allotted funds. Only four projects spent greater than $100,000, which
      in three of the projects, amounted to almost all of their funds. Despite these differences,
      most projects spent at least 75 percent of their Federal grant money on recruiting, training,
      and supporting trainers.




                                        )))))))))))
                                             12
                        CONCLUSION

First year performance data reported by the 12 projects show that they recruited and
trained volunteers, educated Medicare beneficiaries, and identified instances of potential
fraud, waste, and abuse. The data also indicate that the individual projects had very
different experiences. These findings suggest that the projects adopted different
approaches to recruiting and training volunteers or that some had slower starts than
others.

Before a new round of grants is awarded, it is important to learn from projects’
experiences and to explore which practices work best. Such information will assist AoA
in providing guidance to current and future projects and will improve performance and
ensure quality outcomes. To do this, we will conduct an inspection that will identify and
describe key implementation issues. These issues will include: what problems projects
face in implementing their plans; what solutions they develop to overcome these barriers;
which types of projects are most successful; and which practices work best. The report
will also focus on curricula for training trainers, best practices for tracking trainers’
activities and fraud allegations, and efforts to document outcomes.

Additionally, AoA needs to clarify guidance to projects about the extent to which they
should focus their efforts on recruiting and training retired professionals and on investing
time and resources in broader community education activities.




                                         13

                                                                             APPENDIX A


                      Selected Project Characteristics



   PROJECT          Total Proposed $   Total Proposed    Statewide   Type     of       Org.
                         (x1000)         Federal $       coverage
                                          (x1000)                    State   Private   Local

   Aging 2000             146               107             X                 X

 Providence, R.I.

    NH SUA                259               187             X        X
  Concord, N.H.

    NY SUA                250               188             X        X
  Albany, N.Y.

      CARIE               260               188                               X

 Philadelphia, PA

   MD SUA                 240               180                      X
 Baltimore, MD

 Suburban AAA             251               188                                         X

  Oak Park, IL

    CWAG                  173               127             X                 X

  Madison, WI

    MN SUA                239               178                      X
  St. Paul, MN

    IA SUA                349               187                      X
 Des Moines, IA

   Dist 3 AAA             158               117                                         X

Warrensburg , MO

     CHA                  289               188             X                 X

 San Mateo, CA

   HI SUA                 141               100             X        X
  Honolulu, HI

     TOTAL               2,755             1,935            6        6         4        2





                                                   14

                                                               APPENDIX B


                  Performance Measures



     INPUTS:
1    $ spent on recruiting retired professional
2    $ spent on recruiting others
3    $ spent on training retired professionals
4    $ spent on training others
5    $ spent to support retired professionals
6    $ spent to support others
7    $ spent on community education activities
8    $ spent on tracking system
     OUTPUTS:
9    # of retired professional trained
10   # of other people trained
11   # of public service announcements
12   # of community education activities
     OUTCOMES:
13   # of group sessions for beneficiaries led by retired professionals
14   # of group session for beneficiaries led by others
15   # of beneficiaries who attended sessions led by retired professionals
16   # of beneficiaries who attended sessions led by others
17   # of one-on-one encounters led by retired professionals
18   # of one-on-one encounters led by others
19   estimated # of people reached by media hits
20   estimated # of people reached by community education
21   # of referrals attributable to the project
22   # of cases attributable to the project
23   Medicare $ recouped attributable to the project
24   other $ recouped attributable to the project




                                    15

                                                                 APPENDIX B


                          Definitions


RETIRED PROFESSIONAL   These are retired individuals who were professionals (e.g.;
                       teachers, lawyers, doctors, accountants, etc.), who are new
                       volunteers to the aging network, and who are trained to help
                       beneficiaries identify Medicare fraud.

OTHERS                 These are any other individuals who are trained to help
                       beneficiaries identify Medicare fraud.

RECRUITING             Any effort to get individuals to take the training to become a
                       trainer.

TRAINING               The process of training the trainer.

SUPPORT                Any activity to help the trainers, such as transportation,
                       renting space, printing material, and telecommunications.

COMMUNITY EDUCATION    Any training, outreach, or education activity not directed at
                       the trainers nor specifically in support of the trainers. It is
                       geared to a broad audience.

TRACKING SYSTEM        The process of receiving, referring, and monitoring
                       complaints.

TRAINED                Completed training to conduct group or one-on-one
                       beneficiary education.

PUBLIC SERVICE
ANNOUNCEMENT           Any individual airing or publishing of media (print or
                       electronic) to educate beneficiaries and their families about
                       Medicare fraud. (If it is geared to trainers it is recruiting.)

COMMUNITY EDUCATION
ACTIVITIES             Any beneficiary education activity not given by trainers or
                       counted as public service announcements.

GROUP SESSIONS         Medicare fraud education sessions for beneficiaries and their
                       families led by trainers.



                                  16

                                                                 APPENDIX B



                           Definitions


ATTENDED
               The total number of individuals who attend the education
                        sessions.

ONE-ON-ONE ENCOUNTER
   Sessions led by trainers for an individual beneficiary and/or
                        his or her family.

REFERRALS
              Complaints deemed worthy of referring to an investigative
                        agency.

CASES
                  Referrals successfully closed by an investigative agency.
                        e.g.; conviction, judgement, plea.

$ RECOUPED
             Funds returned to the Medicare Trust Fund.




                                  17

                                                                                                                                                                                   APPENDIX C

                                          First Year Outcomes for the Projects1

State                                RI           IL           PA           MD          CA            MO          MN           IA            HI            WI          NY            NH          TOTAL
Projects                         Aging 2000     Sub.AAA       CARIE        MD SUA       CHA         Dist 3 AAA   MN SUA       IA SUA        HI SUA        CWAG        NY SUA        NH SUA

$ recruiting retired prof            15,000        31,960        1,000        1,727      14,400          7,967     25,317              0       4,737             0      13,708         4,500       120,316
$ recruiting others                        0       11,280           100       2,515      17,500          7,816      2,061       26,849         2,368       16,000       22,284            900      109,673
$ training retired prof              29,000        41,360       22,000        1,657      67,600         10,500      4,479              0       4,737             0      13,145         2,250       196,728
$ training others                    14,000        13,160        8,000        2,086      12,800          6,821      1,217        3,922               0     18,400       27,455        11,250       119,111
$ support retired prof               11,000        35,720        1,000        2,805      10,200          8,963      6,170              0       1,597             0       6,273         2,250        85,978
$ support others                           0       15,040           600       2,559      24,000          5,713         315      22,379               0     21,900        2,800        13,500       108,806
$ community education                24,000        20,680        1,000       16,495      12,400          7,171     44,028              0       2,368             0      25,925         9,000       163,067
$ tracking system                    14,000        18,800        9,000        2,766      24,500          3,833         200          675              0          150      1,301         1,350        76,575
total $ spent                       107,000       188,000       42,700       32,610     183,400         58,784     83,787       53,825        15,807       56,450      112,891        45,000       980,254
# retired prof trained                    23           68             20         56           399           32         17              0             35          0       1,053            35         1,738
# of others trained                       40           17             10         175          50            88         10           382              0          335         672           165        1,944
total # of people trained                 63           85             30         231          449          120         27           382              35         335      1,725            200        3,682
# public service announce                 19           19             10         54           21            17         109             80            0           0          55               2         386
# community education                      7           35             60         81           181           16         34              0             6           60         393              4         877
# group sessions by prof                  24           170            30         54           126           12            6            0             2           35         209              0         668
# group sessions by others                 5              0           15         208          55            13         11           238              4           21         61            22           653
total # sessions                          29           170            45         262          181           25         17           238              6           56         270           22         1,321
# of benes at ses. by prof                475       7,074           650          461      4,234            296         83              0             40         638      6,024               0      19,975
# of benes at ses. by others              55              0         350       2,869       5,203            541         390       8,522            355           440      1,080            585       20,390
total # of benes at sessions              530       7,074        1,000        3,330       9,437            837         473       8,522            395       1,078        7,104            585       40,365
# of 1-on-1 by retired prof                0           71             25         28           107           74            0            0             0           10         412              0         727
# of 1-on-1 by others                      0              0           15         244          70           135            3            55            0           0          148           10           680
total of 1-on-1                            0           71             40         272          177          209            3            55            0           10         560           10         1,407
total of benes educated                   530       7,145        1,040        3,602       9,614          1,046         476       8,577            395       1,088        7,664            595       41,772
est. # of people by media hits     1,175,000    1,770,797           500      10,000    1,500,000        50,000    194,000 38,812,650                 0     75,000      462,400        15,300 44,065,647
est # of people by com educ.              540       4,185        1,000       90,500      23,437         50,000      5,000              0          390      10,000       77,292            600      262,944
# of referrals                            11           16             30         51           142          200            4            60            1           10         59            73           657
# of cases                                 0              0           0          13           53             0            0            2             0           8          12               0          88
Medicare $ recouped                        0              0           0       4,897      22,000              0            0   1,137,740              0           0          75               0   1,164,712
Other $ recouped                           0              0           0       2,000            0        35,000            0      1,266               0          620            0             0      38,886
Total $ recouped                           0              0           0       6,897      22,000         35,000            0   1,139,006              0          620         75               0   1,203,598
           1
               Italicized zeros indicate grantees were unable to provide specific data.

                                                                                                18
